        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Joint Actinide Shock Physics
Experimental Research Facility at
the Nevada National Security Site




OAS-L-12-05                          April 2012
                                 Department of Energy
                                    Washington, DC 20585

                                         April 23, 2012


MEMORANDUM FOR THE MANAGER, NEVADA SITE OFFICE



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Joint Actinide Shock Physics
                         Experimental Research Facility at the Nevada National Security Site"


BACKGROUND

The Department of Energy, National Nuclear Security Administration's, Joint Actinide Shock
Physics Experimental Research (JASPER) facility plays an integral role in the certification of the
Nation's nuclear weapons stockpile by providing a method to generate and measure data
pertaining to the properties of materials at high shock pressures, temperatures and strain rates
through utilization of a two-stage gas gun. JASPER, located at the Nevada National Security
Site, is a multi-organizational research facility that hosts personnel from Los Alamos National
Laboratory (Los Alamos), Sandia National Laboratories (Sandia), and Lawrence Livermore
National Laboratory (Livermore). The Nevada Site Office (Site Office) has Federal oversight
and control of JASPER while National Security Technologies, LLC (NSTec), maintains the
facility structures, systems and components. Livermore, a primary user of the facility, was
responsible for specifying experiment parameters and executing experiments to meet
programmatic milestones.

JASPER was constructed in 1999 and operated as a radiological facility until 2007, when NNSA
categorized it as a hazard category 3 nuclear facility. Designation as a hazard category 3 nuclear
facility did not affect the operations at JASPER; however, it increased the risk categorization of
the facility and required the development of new safety and operational procedures. In February
2009, JASPER discontinued operations and all JASPER experiments with Special Nuclear
Materials (SNM) ceased when an abnormal amount of contamination was identified as a result of
an alpha plutonium experiment. Due to the significance of JASPER data to the nuclear weapons
complex, we initiated this audit to determine whether NNSA was on track to return the JASPER
facility to full operational status within cost and scheduled milestones and if the delay impacted
NNSA's mission.

CONCLUSIONS AND OBSERVATIONS

NNSA returned the JASPER facility to full operational status within the budgeted cost and
scheduled milestones as delineated in the Project Execution Plan, the governing document for the
execution of JASPER Return to Program (JRTP) Project. The Livermore and NSTec JASPER
operations team received authorization from the Site Office on August 25, 2011, to restart
JASPER operations. Thereafter, the facility successfully executed a test, involving SNM, in
September 2011. As of September 2011, the JRTP Project was completed at a cost of $18.9
million, approximately $539,000 under the total budgeted baseline cost approved by NNSA.

Both NNSA and laboratory officials noted that timely restart was an important milestone as test
results from JASPER provide information critical to stockpile certification. These officials noted
that the impact of not conducting experiments at the JASPER facility since February 2009
resulted in Livermore and Los Alamos not having experimental data both planned to use to
support the stockpile stewardship program and certification of the U.S. nuclear stockpile. Los
Alamos indicated that it had delayed stewardship out-year goals and objectives because data
from JASPER was unavailable. Finally, Livermore was not able to provide key data from
JASPER experiments to meet NNSA Defense Program milestones, such as modeling. In lieu of
not having data from JASPER during its shutdown, NNSA and laboratory officials stated that
meaningful and complementary data from other experiments had been obtained to support
NNSA's milestones and the stockpile stewardship program. For example, Los Alamos rescoped
projects at Sandia's Z machine to obtain complementary data to support the stockpile stewardship
program. Laboratory officials explained that while data obtained from Sandia's Z machine was
complementary, it did not provide plutonium data at the pressure and temperature rates provided
by JASPER.

Although NNSA restored JASPER to full operational status within the planned cost and schedule
and mitigated the adverse impacts of JASPER's shutdown, we identified several issues that could
affect future operation of the facility. Specifically, we identified problems related to the risk of
future contamination and re-categorization of JASPER as a radiological facility rather than its
current categorization as a hazard category 3 nuclear facility.

                                           Plutonium Target Material

Livermore did not have policies and procedures in place to ensure that deteriorated plutonium
targets were not used in JASPER experiments. We noted that an abnormal amount of
contamination was released during a 2009 experiment at JASPER (using such targets) that led to
discontinued operations because the alpha phase plutonium 1 target had advanced surface
deterioration. According to a Livermore official, oxidation, staging duration and atmospheric
conditions caused deterioration of the target used in the JASPER experiment. Livermore plans to
analyze factors affecting the deterioration of targets and to evaluate methods for assessing the
condition of targets prior to use in experiments. Additionally, Livermore officials told us that
they will establish new controls over the use of targets after they have established a shelf
life/expiration date for targets.

Until Livermore establishes controls such as the shelf life/expiration date of alpha phase
plutonium targets, operational controls will be essential to preventing future contamination

1
 Plutonium is a metal that has different crystalline phases that include delta and alpha phases. Each phase has a
different density and volume, and has its own characteristics (e.g., chemical, physical).


                                                          2
resulting from the use of deteriorated targets. Establishment of shelf life/expiration dates for
alpha material targets are especially important since Livermore officials told us that they plan
several more experiments using such targets at JASPER.

                                 JASPER Facility Categorization

The Site Office is reconsidering the facility designation for JASPER, an action that could lead to
reduced costs by allowing procurement of commercial grade hardware for JASPER and by lessening
operational requirements based on re-defined safety basis requirements. In 2011, NNSA
announced that it was rescinding its 2007 decision that the JASPER facility should be
categorized as a hazard category 3 nuclear facility. The decision provided the Site Office with
the opportunity to re-evaluate the JASPER facility's categorization and to reduce its operational
costs, but did not change its hazard category 3 nuclear facility designation. According to
Livermore and Site Office officials, categorization of JASPER from a hazard category 3 nuclear
facility to a radiological facility would provide cost savings associated with quality assurance
and safety basis requirements, and thereby improve their ability to execute more experiments.
NNSA's decision was based on an analysis presented in the JASPER Hazard Categorization
White Paper, a May 2011 report that concluded the final categorization of the facility should be
radiological.

NNSA recently issued supplemental guidance to Departmental Standards in November 2011 that
increased the amount of plutonium that can be stored and maintained at a facility, guidance that
could impact the final facility categorization. The amount of plutonium staged and maintained
for future experiments to be conducted at the JASPER facility is expected to be within the limits
allowed for a radiological facility. NSTec, however, is currently analyzing the JASPER facility's
categorization to determine final impacts.

SUGGESTED ACTIONS

Livermore was initiating steps and procedures to address the use of alpha phase plutonium
targets; therefore, we are making no formal recommendations. However, given that the only
abnormal contamination incident experienced at the JASPER facility occurred with an alpha
phase plutonium target, we suggest that prior to the execution of an experiment using alpha
phase plutonium target material, the Nevada Site Office Manager coordinate with Livermore to:

    1. Establish shelf life/expiration dates for alpha phase plutonium target material;
    2. Establish and document policies and procedures to ensure degraded targets are not used;
       and,
    3. Evaluate the condition of the target material for any potential degradation.

We further suggest that the Nevada Site Office Manager:

    4. Review the facility categorization analysis, currently being performed by NSTec, when
       it is completed and determine whether the status of the JASPER facility should be
       modified based on new inventory values identified in the updated NNSA guidance.

                                                 3
Because no recommendations are being made in this report, a formal response is not required.
We appreciated the cooperation of your staff and laboratory officials that provided information
and assistance during the audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff




                                                4
                                                                                        Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the National Nuclear Security
Administration (NNSA) was on track to return the Joint Actinide Shock Physics Experimental
Research (JASPER) facility to full operational status within cost and scheduled milestones and if
the delay impacted NNSA's mission.

SCOPE

The audit was performed between May 2011 and March 2012. Our review was conducted at
NNSA Headquarters, in Washington, DC; the Nevada Site Office, in North Las Vegas, Nevada;
and, the Nevada National Security Site (NNSS), in Mercury, Nevada.

METHODOLOGY

To accomplish the audit objective, we:

  •   Toured the JASPER facility at NNSS;

  •   Interviewed Federal and contractor personnel at NNSA Headquarters, the Nevada Site
      Office, Lawrence Livermore National Laboratory, Los Alamos National Laboratory,
      National Security Technologies, LLC, and NNSS;

  •   Reviewed Department of Energy guidance, and Federal regulations, policies and
      procedures pertinent to the return of the JASPER facility to full operational status as a
      hazard category 3 nuclear facility; and,

  •   Reviewed Investigative Reports, Project Execution Plans, Operational Readiness Report,
      and other documents deemed pertinent to the subject audit.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objectives. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 and found
that the Department had established performance measures related to returning the JASPER
facility to full operational status as a hazard category 3 nuclear facility. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit. We did not rely on computer-processed data to satisfy our audit
objective.

An exit conference was held with Departmental and laboratory officials on March 28, 2012.

                                                 5
                                                                    IG Report No. OAS-L-12-05


                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                                      Date

Telephone                                                 Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
